HHS/OIG, Audit -"Review of Compliance with Medicare + Choice Prompt Payment Regulations - America's Health Choice
Medical Plans, Inc.,"(A-04-04-02005)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Compliance with Medicare + Choice Prompt Payment Regulations - America's Health Choice Medical Plans, Inc.," (A-04-04-02005)
December 29, 2004
Complete
Text of Report is available in PDF format (531 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether America's Health Choice Medical Plans, Inc. (America's Health Choice)
complied with M+C prompt payment regulations to timely pay or deny claims submitted by noncontracted providers. America's
Health Choice did not comply with Federal prompt payment regulations. Specifically, it did not:  (1) pay at least
95 percent of clean claims within 30 days of receipt, (2) calculate and pay interest on clean claims not paid within 30
days of receipt, and (3) pay or deny all claims within 60 days of receipt. As a result, some noncontracted providers were
not paid timely and accurately. We recommended management of America's Health Choice establish internal monitoring to ensure
its policies and procedures are properly implemented.